PO Box 261209 ● San Diego, CA 92196-1209
(877) 732-2848 ● sdccu.com

VISA SIGNATURE (NON-VARIABLE)
VISA PLATINUM (NON_VARIABLE)
SHARE SECURED VISA CLASSIC (FIXED)
APPLICATION AND SOLICITATION DISCLOSURE

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Signature (Non-Variable)

12.99%, 15.99%, 17.99%, or 22.99% when you
open your account, based on your creditworthiness.
Visa Platinum (Non-Variable)

9.99%, 12.99%, 14.99%, or 19.99% when you
open your account, based on your creditworthiness.
Share Secured Visa Classic (Fixed)

15.00%
APR for Balance Transfers

Visa Signature (Non-Variable)
16.99%, 19.99%, 21.99% or 26.99% when you open your account,
based on your creditworthiness.
Visa Platinum (Non-Variable)
13.99%, 16.99%, 18.99% or 23.99% when you open your account,
based on your creditworthiness.

APR for Cash Advances

Share Secured Visa Classic (Fixed)
15.00%
Visa Signature (Non-Variable)
16.99%, 19.99%, 21.99% or 26.99% when you open your account,
based on your creditworthiness.
Visa Platinum (Non-Variable)
13.99%, 16.99%, 18.99% or 23.99% when you open your account,
based on your creditworthiness.

How to Avoid Paying Interest on Purchases

For Credit Card Tips from the Consumer
Financial Protection Bureau

Share Secured Visa Classic (Fixed)
15.00%
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee – Visa Signature
(Non Variable)
- Annual Fee – Visa Platinum
(Non Variable)
- Annual Fee – Share Secured Visa Classic
(Fixed)

©CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

$89.00
None
$20.00

MXC101-E

SEE NEXT PAGE for more important information about your account.

Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee: Visa Signature
(Non-Variable)
- Foreign Transaction Fee: Visa Platinum
(Non-Variable) and Share Secured Visa
Classic (Fixed)
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Either $1.00 or 2.00% of the amount of each balance transfer,
whichever is greater
Either $1.00 or 2.00% of the amount of each cash advance,
whichever is greater
0.00% of each transaction in U.S. dollars
2.00% of each transaction in U.S. dollars

Up to $10.00
Up to $20.00

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases).
Effective Date:
The information about the costs of the card described in this application is accurate as of September 01, 2021. This
information may have changed after that date. To find out what may have changed, contact SDCCU at (877) 732-2848.
Share Secured Visa Classic (Fixed) Card: Credit extended under this credit card account is secured by a portion of
the shares you have on deposit at SDCCU. You will be asked to sign a Pledge of Shares document, and the amount
of the pledge will be equal to 120% of the approved credit limit.
For California Borrowers, the Share Secured Visa Classic is a secured credit card. Credit extended under this credit
card account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding shares
in an Individual Retirement Account or in any other account that would lose special tax treatment under state or
federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant
us but will not be secured by all shares you have in any individual or joint account with the Credit Union. For clarity,
you will not be deemed a covered borrower if: (i) you establish your credit card account when you are not a covered
borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Fly Miles Plus™ Reward Program - Visa Platinum (Non-Variable) and Share Secured Visa Classic (Fixed):
$35.00 annually. This program fee is charged to all accounts that elect to have SDCCU’s Fly Miles Plus Reward Program.
This fee is waived if annual purchases are $6,000.00 or more. The Fly Miles Plus Reward Program is not available on the
Visa Signature (Non-Variable).
Late Payment Fee:
$10.00 or the amount of the required minimum payment, whichever is less, if you are 11 or more days late in making a
payment.
Returned Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$5.00 each
Statement Copy Fee:
$5.00 per document
Non-CO-OP ATM Withdrawal Fee:
$2.00 each
Non-CO-OP ATM Inquiry Fee:
$1.00 per inquiry
International ATM Withdrawal Fee:
$5.00 each
Apply Today!
MXC101-E

